No. 20-107

A ———
IN THE
Supreme Court of the Anited States

 

CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,
Petitioners,
VW
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on February 12, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Respondents on counsel for each party to the above proceeding as follows:

Joshua Paul Thompson Joshua Patashnik

Pacific Legal Foundation California Dep’t of Justice

930 G St. A55 Golden Gate Ave., Ste. 11000
Sacramento, CA 95814 San Francisco, CA 94102
jthompson@pacificlegal.org josh.patashnik@doj.ca.gov

(916) 419-7111 (415) 510-3896

Counsel of Record for Petitioners Counsel of Record for Respondents
Cedar Point Nursery, et al. Victoria Hassid, et al.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2021.

Broom) sf

Brianne J7Gorod
Counsel for Amicus Curiae
